Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs Bureau of Justice Assistance Court Information Systems Automation and Integration Project Grant Awarded to Search Group, Inc. Grant Number 1999-MU-MU-0005 
Sacramento, California

Report No. GR-90-04-001


December 2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Court Information Systems Automation and Integration Project grant, including supplements, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA) to SEARCH Group, Inc., (SEARCH Group) headquartered in Sacramento, California. The purpose of this grant was to assist courts in upgrading existing systems and in developing integrated systems with other courts and justice system agencies, as well as developing peer-to-peer support relationships among state court and justice system MIS managers and directors. In addition, the grant was to allow for a comprehensive program of technical assistance to aid non-automated courts. As of February 15, 2001, SEARCH Group was awarded a total of $2,500,000 to provide technical assistance to improve the general level of knowledge and understanding of court information system management. We tested SEARCH Group's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Of the $2,512,4411 expended as of March 31, 2003, we tested transactions totaling $995,325 and found some transactions lacked adequate support or were unallowable. As a result, we question $25,000 in grant funds received.22 In addition, we recommend that SEARCH Group remit to the federal government $4,602 in imputed interest. In brief, we found:

SEARCH Group did not receive prior approval for transfers between budget categories that exceeded the allowable 10 percent of the grant award.3


SEARCH Group drew down advances on the grant in a manner that resulted in excess federal funds on hand for immediate use.


For fiscal year 2000, several disbursements did not have supporting invoices.

These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix II.


Footnotes

$2,500,000 grant, $5,000 program-related income and $7,441 paid by SEARCH Group from its own funds.
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use. However, not all findings are dollar-related. See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.
Subsequent to completing our fieldwork, the SEARCH Group requested and received BJA's retroactive approval for these transfers.